                 Department of the Interior
                 Office of Inspector General




              Audit Report



           U.S. Fish and Wildlife Service Wildlife and
            Sport Fish Restoration Program Grants
               Awarded to the State of Nevada,
                    Department of Wildlife,
           From July 1, 2006, Through June 30, 2008




Report No.
R-GR-FWS-0007-2009                         January 2010
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                  January 15, 2010

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Nevada, Department of Wildlife, From July 1, 2006,
           Through June 30, 2008 (No. R-GR-FWS-0007-2009)

        This report presents the results of our audit of costs claimed by the State of Nevada (the
State), Department of Wildlife (the Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program (the Program). The audit included claims totaling approximately $47
million on 30 grants that were open during State fiscal years (SFYs) ended June 30 of 2007 and
2008 (see Appendix 1). The audit also covered the Department’s compliance with applicable
laws, regulations, and FWS guidelines, including those related to the collection and use of
hunting and fishing license revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $271,588, resulting from
unsupported in-kind contributions, and found that the Department submitted two unsupported
and inaccurate hunting and fishing license certifications. Furthermore, the Department did not
have adequate controls in place over equipment and had not reconciled its real property records
with FWS.

        In addition, the Department had not fully developed or implemented a business
continuity/disaster recovery plan prior to the commencement of our audit. Without such a plan,
the Department might not have the ability to properly restore essential information technology
services and business operations related to Program grants in the event of an outage, disaster, or
other type of interruption. However, the Department finished and implemented an appropriate
plan before we completed our audit fieldwork. We therefore determined that no
recommendation regarding this issue was necessary.
      We provided a draft report to FWS for a response. We summarized the Department and
FWS Region 8 responses and provided our comments on the responses after the
recommendations. We list the status of each recommendation in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
April 15, 2010. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader,
Mr. Crist Chensvold, or me at 703–487–5345.

cc:   Regional Director, Region 8, U.S. Fish and Wildlife Service




                                                2
                                               Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (the Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the
Program, FWS provides grants to States to restore, conserve, manage, and enhance their sport
fish and wildlife resources. The Acts and federal regulations contain provisions and principles
on eligible costs and allow FWS to reimburse States up to 75 percent of the eligible costs
incurred under the grants. The Acts also require that hunting and fishing license revenues be
used only for the administration of the State’s fish and game agency. Finally, federal regulations
and FWS guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $47 million on the 30 grants that were open
during SFYs 2007 and 2008 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Department headquarters in Reno, NV, and
visited two regional offices, two field offices, six wildlife management areas, two fish
hatcheries, and one motor boat access project (see Appendix 2). We performed this audit to
supplement, not replace, the audits required by the Single Audit Act Amendments of 1996 and
by Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          3
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of the Department’s operations.

Prior Audit Coverage
On September 29, 2006, we issued “Final Audit Report on the U.S. Fish and Wildlife Service
Federal Assistance Grants Administered by the State of Nevada, Department of Wildlife, From
July 1, 2002 Through June 30, 2004” (No. R-GR-FWS-0011-2005). We followed up on all ten
recommendations in the report and found that none were considered implemented. Although
FWS obtained documentation regarding the implementation of nine recommendations, this
information has not yet been received by the Department of the Interior, Office of Assistant
Secretary for Policy, Management, and Budget, which is tracking implementation. Nevertheless,
we found continuing problems with the accuracy of and support for the Department’s hunting
and fishing license certifications and its controls over equipment, which we discuss in the
Findings and Recommendations section of this report.

We also reviewed Nevada’s Comprehensive Annual Financial Reports for SFYs 2007 and 2008
and the Single Audit Report for SFY 2007. The Department’s Wildlife and Sport Fish
Restoration Programs were identified as major programs and were tested for the Single Audit.
None of these reports contained any findings that would directly impact the Program grants.

                                                4
                                   Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including unsupported questioned costs
totaling $271,588. We discuss the findings in more detail in the Findings and Recommendations
section.

       Questioned Costs. We questioned $271,588 in unsupported in-kind contributions
       claimed on six grants. The Department calculated the value of these contributions using
       incorrect labor rates and did not maintain adequate documentation to support the hours
       claimed.

       Unsupported and Inaccurate Hunting and Fishing License Certifications. The
       Department did not eliminate duplicates from its license certifications issued in 2007 and
       2008 and did not maintain documentation to support the certifications.

       Inadequate Equipment Management System. The Department’s records did not
       correctly show the funding source of all equipment purchased with Program funds and
       license revenue.

       Inadequately Tracked Equipment. The Department did not consistently follow its own
       procedures to track equipment purchased with Program funds and license revenue.

       Unreconciled Real Property Records. We found discrepancies between the real
       property records maintained by the Department and FWS because they had not reconciled
       their respective records.

Findings and Recommendations
A.     Questioned Costs — $271,588

       Under the Program, States must use “State matching” (nonfederal) funds to cover at least
       25 percent of costs incurred in performing projects under the grants. Noncash (“in-kind”)
       contributions may be used to meet States’ matching share of costs, but as with costs
       claimed for reimbursement, the value of these in-kind contributions must be supported.
       We reviewed in-kind contributions consisting of volunteer labor and mileage claimed by
       the Department on its grants. The Department calculated these contributions by
       multiplying labor and mileage rates by the hours and miles donated. We noted no
       exceptions related to mileage contributions. However, we determined that the labor
       amounts claimed on these grants were unsupported; the Department calculated the value
       of these contributions using incorrect labor rates and did not maintain adequate
       documentation to support the hours claimed.
                                                5
  The Code of Federal Regulations (CFR) provides the general documentation
  requirements for in-kind contributions. It also provides guidance on calculating the value
  of the contributions. Under 2 CFR § 225, Appendix A, Subsection C.1.j., which outlines
  basic guidelines on cost principles, costs must be adequately documented to be allowable
  under federal awards. According to 43 CFR § 12.64(b)(6), in-kind contributions
  counting towards satisfying a matching requirement must be verifiable from the records
  of grantees, and the records must show how the value placed on the in-kind contributions
  was derived. It also notes that to the extent feasible, volunteer services will be supported
  by the same methods that the organization uses to support the allocability of regular
  personnel costs. Furthermore, 43 CFR § 12.64(c) states that unpaid services provided to
  a grantee by individuals will be valued at rates consistent with those ordinarily paid for
  similar work in the grantee’s organization, and a reasonable amount for fringe benefits
  may be included in the valuation.

  This issue occurred because the Department:

      •   issued a policy basing its in-kind labor rates on hourly rates that were developed
          for budgetary purposes and were higher than the labor rates used to pay
          Department employees for similar work;

      •   allowed volunteers to report the hours they worked as a lump sum over multiple
          days, even though Department employees must record their hours on a daily
          basis; and

      •   did not ensure that volunteers completed, certified, and obtained approval on
          manual and electronic timesheets in a manner similar to Department employees.

  The Department overstated the value of its in-kind contributions on the grant agreements
  listed below, resulting in $112,752 and $158,836 in questioned costs for SFYs 2007 and
  2008, respectively. We are therefore questioning a total of $271,588 in unsupported costs
  (federal share) for both SFYs.

                     Federal Share of Questioned Costs, SFY2007
                                        Grant Numbers and Amounts
           Description                                                          Total
                                   F-30-AE-18     W-48-R-38     W-51-HS-32
Original Federal Share Claimed      $306,821       $1,495,883      $281,168
Total Grant Outlays                 $446,145       $1,995,490      $418,455
Less: Unsupported In-Kind
                                    $110,115          $25,839       $95,976
Contributions
Revised Grant Outlays               $336,030       $1,969,651      $322,479
Allowable Federal Share                  75%             75%           75%
Allowable Federal Amount            $252,023       $1,477,238      $241,859
Federal Share Questioned Costs        $54,798         $18,645      $ 39,309    $112,752


                                           6
                    Federal Share of Questioned Costs, SFY2008
                                       Grant Numbers and Amounts
           Description                                                       Total
                                  F-30-AE-19 W-51-HS-33        W-64-R-8
Original Federal Share Claimed     $268,663       $422,507     $445,074
Total Grant Outlays                $363,787       $577,350     $593,432
Less: Unsupported In-Kind
                                     $87,647      $126,654      $17,057
Contributions
Revised Grant Outlays              $276,140       $450,696     $576,375
Allowable Federal Share                 75%           75%           75%
Allowable Federal Amount           $207,105       $338,022     $432,281
Federal Share Questioned Costs       $61,558       $84,485      $12,793     $158,836

 Recommendations

 We recommend that FWS:

 1. resolve the unsupported questioned costs totaling $271,588, and

 2. ensure the Department revises its policies and procedures on in-kind contributions to
    bring its volunteer labor rates and timekeeping procedures in line with federal
    requirements.

 Department Response

 The Department concurred with the recommendations and will resolve the questioned
 costs and revise its policies and procedures covering in-kind contributions.

 FWS Response

 FWS Regional officials concurred with the recommendations.

 OIG Comments

 Based on both the Department and FWS responses, additional information is needed in
 the corrective action plan, including:

    •   the specific action(s) taken or planned to address the recommendations;

    •   titles of officials responsible for implementing the actions taken or planned; and

    •   verification that FWS headquarters officials reviewed and approved of actions
        taken or planned by the Department.



                                         7
B.      Unsupported and Inaccurate Hunting and Fishing License Certifications

        Annual apportionments of Program funds are based in part on the number of paid hunting
        and fishing license holders certified by the director of each State’s fish and wildlife
        agency. The Department issued a certification report to FWS on June 27, 2007, for
        licenses purchased in 2006. Due to a change in the reporting period parameters set by
        FWS, the Department appropriately resubmitted the same report on August 29, 2008, to
        cover the next certification period. The data included in these reports was extracted from
        two different licensing systems: the License Inventory and Sales Accounting (LISA)
        system and the Nevada Wildlife Data System (NWDS).

        Our review of the Department’s hunting and fishing license certifications found that:

             •   The Department attempted to eliminate duplicate license holders from the LISA
                 system by applying adjustment factors to various types of licenses sold.
                 However, these factors were based on an outdated study from the 1970’s.

             •   The Department could not provide detailed sales information to verify the data
                 from the LISA system, including the names of license holders, their license
                 numbers, and the dates the licenses were purchased.

             •   License holders who purchased multiple short-term licenses during the
                 certification period were not removed from the NWDS data. NWDS only
                 eliminated duplicate license holders who paid to replace a lost license.

        According to 50 CFR §§ 80.10(a) and (b), information concerning the number of persons
        holding paid hunting and fishing licenses in the State in the preceding year shall be
        furnished to FWS, and the information shall be certified as accurate by the State.
        Furthermore, 50 CFR § 80.10(c)(5) notes that an individual holding more than one
        license to hunt or fish shall not be counted more than once as a hunting or fishing license
        holder. 2 In addition, the FWS Manual, in 522 FW 2.7(1), states that surveys to determine
        and adjust for duplicate license holders should be conducted every 5 years, or sooner if
        the State’s license structure changes.

        Since at least 2006, the Department had been aware of the need to update the 1970’s
        survey and retain records to substantiate the LISA data. It planned to address these issues
        by eliminating LISA and implementing NWDS, which was to have the ability to remove
        all duplicate license holders and produce detailed reports on licenses sold. However, at
        the time of its June 2007 certification, the Department had only partially implemented
        NWDS and had not yet completed the programming to remove all duplicates. This issue
        was compounded when the mandated change in certification periods forced the
        Department to reissue the same certification in August 2008. As a result, the number of

2
  The CFR sections cited here were in effect at the time the Department issued its 2007 and 2008 license
certifications. A revision of 50 CFR § 80.10, which incorporated the same requirements described in this finding,
became effective on October 1, 2008. The information previously contained in 50 CFR §§ 80.10(a), (b), and (c)(5)
can now be found in 50 CFR §§ 80.10(a)(3) and (c).
                                                        8
     paid licenses reported in the 2007 and 2008 certifications could be understated or
     overstated, which could have affected the State’s apportionment of Program funds.

     The first two issues discussed in this finding, pertaining to the LISA system, were also
     reported in our previous audit (No. R-GR-FWS-0011-2005, Recommendations D.1 and
     D.2). However, we are not repeating the recommendations from that report because
     LISA has not been operational since 2008. Our recommendation in this report therefore
     pertains to NWDS, the Department’s current licensing system.

     Recommendation

     We recommend that FWS ensure the Department removes all duplicates from future
     license certifications or develop another method, such as using adjustment factors from
     an updated survey, to reasonably account for and eliminate duplicates.

     Department Response

     The Department concurred with the recommendation and stated that NWDS can now
     reasonably account for and eliminate duplicate records of license holders.

     FWS Response

     FWS Regional officials concurred with the recommendation.

     OIG Comments

     Based on both the Department and FWS responses, additional information is needed in
     the corrective action plan, including:

        •   the specific action(s) taken or planned to address the recommendation;

        •   titles of officials responsible for implementing the actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

C.   Inadequate Personal Property Management System

     The Department’s Fiscal Services Section maintains the personal property inventory,
     which includes property costing over $1,000 and all weapons and computers, regardless
     of cost. It contains over 2,500 items valued at about $15.6 million. However, the
     Department did not have any records detailing the source of funds (Program funds,
     license revenues, State funds, etc.) used to purchase equipment prior to 2000. The State’s
     Integrated Financial System (IFS) contained the funding source for property acquired in
     2000 and later, but according to accounting staff responsible for the Department’s


                                             9
inventory, that information is unreliable. Finally, the Department has kept subsidiary
inventory records apart from the IFS, but those records are incomplete.

The CFR (50 CFR § 80.18(c)) and the FWS Manual (522 FW 1.16) require that the State
account for and control all assets acquired with Program funds. This requirement ensures
that the assets are used throughout their life to fulfill the purpose for which they were
acquired.

This issue arose due to two main factors. First, the Department’s records for property
purchased prior to 2000 have been misplaced. Second, prior to 2009, accounting staff did
not consistently record the correct funding sources for property in the IFS because they
did not fully understand the functionality of its fixed asset module.

Without maintaining accurate records on the funding source of its property, the
Department cannot ensure that (1) the property items purchased with Program funds and
license revenues are being utilized for the purposes for which they were originally
acquired; or (2) the proceeds from the sale of property purchased with Program funds and
license revenues are properly credited.

We reported a similar condition in our prior audit report (No. R-GR-FWS-0011-2005,
Recommendation C.1); therefore, we are repeating the applicable recommendation from
that report. Implementation of the repeat recommendation will be tracked under the
resolution process for the prior audit report.

Repeat Recommendation

We recommend that FWS require the Department to review the current personal property
inventory database and identify those property items that were purchased with Program
funds and license fee revenues.

Department Response

The Department concurred with the recommendation and is in the process of reviewing
its personal property database, identifying items purchased with Program funds and
license revenues, and incorporating the correct coding in IFS.

FWS Response

FWS Regional officials concurred with the recommendation.

OIG Comments

The implementation of this recommendation will be tracked under the prior audit report.
Accordingly, FWS should send documentation regarding the implementation of this
recommendation to the Department of the Interior, Office of Assistant Secretary for
Policy, Management, and Budget.

                                        10
D.       Inadequately Tracked Equipment

         To test the Department’s controls over equipment, we selected 26 items costing $258,604
         from the Department’s subsidiary inventory records. 3 During our testing, we noted that:

             •    property tags were not affixed to seven pieces of equipment, costing $105,957,
                  including trucks, a trailer, a camper shell, and a computer;

             •    transfer documents were not completed for two equipment items, costing $25,958,
                  until we inquired about their location; and

             •    an employee loaned a camcorder, costing $1,035, to a seasonal employee without
                  maintaining a required log sheet to record the item’s condition, the date it was
                  borrowed, and the name and signature of the borrower.

         Our exceptions totaled $132,950, or 51 percent of the value of our sample.

         According to 43 CFR § 12.72(b), States are required to manage equipment acquired
         under Program grants in accordance with their own laws and procedures. The
         Department’s Property Management Procedures states that (1) property tags should be
         affixed to weapons, computers with licensed software, and items valued over $1,000;
         (2) transfers of property should be documented prior to transfer through property
         disposition reports; and (3) equipment custodians should maintain log sheets on
         equipment loaned to other employees to record the item’s condition, the date it was
         borrowed, and the name and signature of the borrower.

         Department staff did not consistently follow property control procedures, which resulted
         in these exceptions. Specifically:

             •    staff in the Fiscal Services Section kept property tags for vehicles on file rather
                  than forwarding them to the field employees responsible for the equipment; and

             •    field employees did not always submit property disposition reports before
                  transferring equipment, maintain log sheets on equipment loaned to other
                  employees, or request replacement property tags as needed.

         The Department therefore cannot ensure that its equipment is used only for authorized
         purposes. This lack of control also increases the risk that equipment could be lost or
         misplaced.




3
  According to accounting staff, the subsidiary inventory records most accurately reflect the correct funding source
of the equipment, but these records have been kept only since 2003. Therefore, our test was limited to equipment
purchased between 2003 and 2009.


                                                         11
     Recommendation

     We recommend that FWS ensure the Department follows its procedures to tag all
     equipment, complete the appropriate documentation before transferring equipment
     between employees, and maintain log sheets for loaned equipment.

     Department Response

     The Department concurred with the recommendation and will update its policies and
     procedures to more accurately reflect its current practices for transferring and loaning
     equipment.

     FWS Response

     FWS Regional officials concurred with the recommendation.

     OIG Comments

     Based on both the Department and FWS responses, additional information is needed in
     the corrective action plan, including:

        •   the specific action(s) taken or planned to address the recommendation;

        •   titles of officials responsible for implementing the actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

E.   Unreconciled Real Property Records

     The Department and FWS each maintain records on land purchased with Program grant
     funds; however, these two sets of records show significant differences. The
     Department’s land inventory identified approximately 41,222 acres with an acquisition
     cost of about $3.6 million. Conversely, FWS land records show approximately 66,675
     acres costing about $9.2 million.

     According to 50 CFR § 80.18 and 522 FW 1.15, each State is required to maintain
     accountability and control of all assets to assure that they are used for the purpose for
     which acquired throughout their useful life. The FWS Director reiterated land
     management requirements to Program participants in a March 29, 2007 letter. This letter
     requested each State to maintain a real property management system that includes a
     comprehensive inventory of lands and to ensure that its inventory is accurate and
     complete.

     Department and FWS officials acknowledged that they had not reconciled the respective
     land inventories to determine their accuracy and completeness. As a result, the

                                              12
Department’s land records are not adequate to ensure that lands acquired with grant funds
are used only for their originally intended purposes.

Recommendation

We recommend that FWS ensure the Department reconciles its real property records with
FWS.

Department Response

The Department concurred with the recommendation and noted that its land agent is
responsible for reconciling the Department’s land records. However, this position is
currently vacant.

FWS Response

FWS Regional officials concurred with the recommendation.

OIG Comments

Based on both the Department and FWS responses, additional information is needed in
the corrective action plan, including:

   •   the specific action(s) taken or planned to address the recommendation;

   •   titles of officials responsible for implementing the actions taken or planned; and

   •   verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the Department.




                                        13
                                                         Appendix 1

                     STATE OF NEVADA
                DEPARTMENT OF WILDLIFE
        FINANCIAL SUMMARY OF REVIEW COVERAGE
           JULY 1, 2006, THROUGH JUNE 30, 2008
    GRANT        GRANT         CLAIMED     QUESTIONED COSTS
   NUMBER       AMOUNT          COSTS      (FEDERAL SHARE)
F-20-42        $2,046,064     $1,820,044
F-20-43         2,046,064      1,836,442
F-27-B-57          90,000         90,160
F-27-B-58          15,000         13,624
F-30-AE-18        409,649        446,145       $54,798
F-30-AE-19        358,217        363,787        61,558
F-32-D-16       2,196,912      2,143,804
F-32-D-17       2,351,004      2,029,945
F-38-D-2       26,296,131     24,108,007
F-39-B-1          337,272        112,825
F-40-B-1           85,156          1,741
F-41-B-1          313,171         54,888
FW-1-CP-7          86,688         48,713
FW-1-CP-8          97,314         79,085
FW-3-T-25       1,254,475      1,205,758
FW-3-T-26       1,279,568      1,254,246
FW-4-D-13       1,374,694      1,293,197
FW-4-D-14       1,510,540      1,499,637
FW-20-L-8         184,849        157,338
W-48-R-38       3,192,204      1,995,490        18,645
W-48-R-39       2,234,128      2,372,036
W-51-HS-32        450,828        418,455        39,309
W-51-HS-33        633,432        577,350        84,485
W-58-D-17         548,916        599,086
W-58-D-18         737,871        800,937
W-61-D-10         166,667        131,427
W-61-D-11         166,667        146,522
W-64-R-7          503,400        466,874
W-64-R-8          656,520        593,432        12,793
W-66-E-1          320,000        307,005
Totals        $51,943,401    $46,968,000      $271,588




                            14
                                           Appendix 2

       STATE OF NEVADA
    DEPARTMENT OF WILDLIFE
         SITES VISITED
             Headquarters

     Department of Wildlife, Reno
      Operations Division, Reno

           Regional Offices

         Eastern Region, Elko
      Southern Region, Las Vegas

             Field Offices

   Eastern Region Field Office, Ely
  Western Region Field Office, Fallon

     Wildlife Management Areas

            Franklin Lake
              Humboldt
             Key Pittman
            Mason Valley
            Steptoe Valley
            Wayne E. Kirch

            Fish Hatcheries

               Gallagher
              Lake Mead

      Motor Boat Access Projects

Big Bend of the Colorado Recreation Area




                  15
                                                                              Appendix 3

                    NEVADA DEPARTMENT OF WILDLIFE
             STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

 Recommendations                  Status                          Actions Required
A.1, A.2, B, D, and   FWS management concurs          Additional information is needed in
E                     with the recommendations,       the corrective action plan, including
                      but additional information is   the actions taken or planned to
                      needed as outlined in the       implement the recommendations, the
                      “Actions Required” column.      title of official(s) responsible for
                                                      implementation, and verification that
                                                      FWS officials reviewed and approved
                                                      of actions taken or planned by the
                                                      State. We will refer recommendations
                                                      not resolved and/or implemented at
                                                      the end of 90 days (after April 15,
                                                      2010) to the Assistant Secretary for
                                                      Policy, Management, and Budget
                                                      (PMB) for resolution and/or tracking
                                                      of implementation.
C                     Repeat recommendation C.1       Provide documentation regarding the
                      from our prior report (R-GR-    implementation of this
                      FWS-0011-2005). PMB             recommendation to PMB.
                      considers this
                      recommendation resolved
                      but not implemented.




                                        16
                                                 


                      Report Fraud, Waste, Abuse,  
                         and Mismanagement
                                                   
                            Fraud,
                                    waste and abuse in government
                            concern everyone: Office
                                                         of Inspector
                            General staff, Departmental employees,
                            and the general public. We actively
                            solicit allegations of any inefficient and
                            wasteful  practices, fraud, and abuse
                            related to Departmental or Insular Area
                           
                            programs and operations. You can
                                                                     
                            report allegations to  us in several ways.
                                                 
                                                     
                                                 
                                                 
                 By Mail:           U.S. Department of the Interior  
                                    Office of Inspector General  
                                    Mail Stop 4428 MIB  
                                    1849 C  Street, NW  
                                    Washington, D.C. 20240  
                   
                 By Phone :         24‐Hour Toll Free                    800‐ 424‐5081 
                                    Washington Metro Area                703‐ 487‐5435 
                   
                 By Fax:            703‐487‐5402
                   
                 By Internet:       www. doioig.gov/hotline
              
                                                                                           
